<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 116-223]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-223
 
                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 17, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  

  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                           ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-771 PDF            WASHINGTON : 2021 
         
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           DECEMBER 17, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Cardin. Hon. Benjamin L., U.S. Senator from the State of Maryland    36
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..   157

                              LEGISLATION

S. 3051, America's Conservation Enhancement Act..................    38
    Amendments:
        Merkley Amendment #1, To require the Secretary of 
          Transportation to establish a program to provide grants 
          to carry out activities to benefit pollinators on 
          roadsides and highway rights-of-way, including the 
          planting and seeding of native, locally-appropriate 
          grasses and wildflowers, including milkweed............   150
        Booker Amendment #1, To establish National Wildlife 
          Corridors to provide for the protection and restoration 
          of certain native fish, wildlife, and plant species....   158
        Barrasso-Carper Amendment #1, To improve the bill........   209
        Cardin-Van Hollen Amendment #1, To increase the 
          authorization of appropriations for the Chesapeake Bay 
          Program................................................   214
        Merkley-Booker Amendment #3, To include in the study to 
          review conservation factors a review of species that 
          have been identified as needing listing or uplisting 
          but remain unprotected.................................   217
Nomination Reference and Report, PN1247, Robert J. Feitel, of 
  Maryland, to be Inspector General, Nuclear Regulatory 
  Commission.....................................................   220
General Services Administration Resolutions......................   221

                          ADDITIONAL MATERIAL

Letter to:
    Senators Barrasso and Carper from the American Fisheries 
      Society et al., January 7, 2020............................     4
    Senators Barrasso and Carper from the Boone and Crockett Club 
      et al., January 7, 2020....................................     6
    Senators Barrasso and Carper from the Family Farm Alliance, 
      January 9, 2020............................................     7
    Senators Barrasso and Carper from the National Association of 
      State Departments of Agriculture, January 10, 2020.........     9
    Senators Barrasso and Carper from Pheasants Forever and Quail 
      Forever, January 14, 2020..................................    11
    Senators Barrasso and Carper from Trout Unlimited, December 
      16, 2019...................................................    12
    Senators Barrasso and Carper from the Wyoming Stock Growers 
      Association, December 19, 2019.............................    14
    Senators Barrasso and Carper from the American Sportfishing 
      Association, December 16, 2019.............................    16
    Senators Barrasso and Carper from Ducks Unlimited, Inc., 
      January 3, 2020............................................    18
    Senators Barrasso and Carper from the National Audubon 
      Society, December 17, 2019.................................    20
    Senators Barrasso and Carper from the Association of Fish and 
      Wildlife Agencies, December 18, 2019.......................    22
    Senators Barrasso and Carper from the Public Lands Council et 
      al., December 23, 2019.....................................    23
    Senators Barrasso and Carper from the National Wildlife 
      Federation, December 16, 2019..............................    24
    Senators Barrasso and Carper from the Northeast Association 
      of Fish and Wildlife Agencies, Inc., December 16, 2019.....    26
    Senators Barrasso and Carper, et al., from the Congressional 
      Sportsmen's Foundation, December 16, 2019..................    28
    Senators Barrasso and Carper from the Southeastern 
      Association of Fish and Wildlife Agencies, December 20, 
      2019.......................................................    33
    Senator Barrasso from the Wyoming Game and Fish Department, 
      December 20, 2019..........................................    35
    Senator Cardin from the General Services Administration, 
      December 16, 2019..........................................   206


                            BUSINESS MEETING

                              ----------                              


                       TUESDAY, DECEMBER 17, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:36 a.m., in 
room 406, Dirksen Senate Building, Hon. John Barrasso (Chairman 
of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Cramer, 
Braun, Rounds, Sullivan, Boozman, Wicker, Ernst, Cardin, 
Merkley, Gillibrand, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    Today we are going to consider one bill, one nomination, 
and 19 General Services Administration resolutions.
    Senator Carper and I have agreed that we will begin voting 
at 9:45. At that time, I will call up the items on the agenda. 
We will not debate the items on the agenda while we are voting. 
Instead, we will debate the items on the agenda before we begin 
voting. We will also be happy to recognize any member who still 
wishes to speak after the voting concludes.
    Today, we will consider S. 3051, America's Conservation 
Enhancement Act, or the ACE Act. I introduced the ACE Act, 
along with Senator Carper, and then Senators Cramer, Cardin, 
Capito, and Van Hollen have all joined as cosponsors. I thank 
them for working with me to craft this important piece of 
legislation.
    The ACE Act is a comprehensive, bipartisan, wildlife 
conservation bill. It protects both wildlife and wildlife 
habitat, while protecting livestock from predatory species. It 
addresses threats to communities and native wildlife from 
invasive species, as well as from emerging disease.
    More specifically, the bill reauthorizes the important 
environmental programs, including the North American Wetlands 
Conservation Act, the National Fish and Wildlife Foundation 
Act, and the Chesapeake Bay Program. The ACE Act also enshrines 
in statute partnerships among public agencies and other 
interested parties to promote fish conservation.
    The ACE Act addresses the terrible, degenerative, highly 
contagious brain disease known as chronic wasting disease. We 
have heard in several hearings how chronic wasting disease 
impacts wildlife, including degeneration of the brain, loss of 
bodily control, and untimely death. Detected nearly 40 years 
ago, chronic wasting disease has spread to 26 States and 4 
Canadian provinces.
    The ACE Act establishes a Chronic Wasting Disease Task 
Force at the U.S. Fish and Wildlife Service. This task force 
will bring States, relevant Federal agencies, scientists, 
managers, and farmers to the table. Together, they can better 
coordinate prevention and control efforts and target future 
research to address unanswered questions.
    The ACE Act helps livestock producers better manage and 
cope with the interactions between livestock and wildlife. It 
authorizes funds for livestock producers to carry out non-
lethal activities that reduce livestock loss due to predation 
by federally protected species. It also compensates ranchers 
and farmers for livestock lost due to predation.
    The ACE Act also authorizes the Director of the U.S. Fish 
and Wildlife Service to issue permits to livestock producers 
that will help prevent black vultures and ravens from killing 
newborn calves and lambs.
    The ACE Act also includes studies that will help them form 
how to improve successful conservation and recovery of 
endangered and threatened species.
    The bill supports recreational hunting and sport fishing 
through the wildlife conservation dollars that these activities 
generate by authorizing financial and technical assistance 
under the Pittman-Robertson Wildlife Restoration Fund to States 
for the promotion of hunting and recreational shooting.
    Together, these provisions will make America's wildlife 
healthier and more abundant, while allowing rural communities 
to thrive at the same time. I encourage all my colleagues to 
support it.
    Today, we will also consider the nomination of Robert 
Feitel to be the Inspector General of the Nuclear Regulatory 
Commission. The Subcommittee on Clean Air and Nuclear Safety 
held a hearing on Mr. Feitel's nomination earlier this month.
    I would like to thank the Chairman of the Subcommittee, 
Senator Braun, for holding the hearing and assisting the full 
Committee in considering Mr. Feitel's nomination. Mr. Feitel is 
well qualified, and will bring a wealth of experience and 
expertise to this important position.
    Last, we will consider 19 resolutions to approve 
prospectuses providing for General Services Administration 
leases.
    I urge my colleagues to support passage of the bill, the 
nominee, and the resolutions we are considering today.
    In a few minutes, we will hear from the Ranking Member, as 
well as Senator Cardin. While we are waiting, I will submit for 
the record a number of letters of stakeholder support.
    The Committee has received statements in support of 
America's Conservation Enhancement Act, or the ACE Act, from 
stakeholders, including the National Wildlife Federation, the 
Association of Fish and Wildlife Agencies, Trout Unlimited, 
Congressional Sportsmen Foundation, the Northeast Association 
of Fish and Wildlife Agencies, the American Sportfishing 
Association, the Wyoming Game and Fish Department, the Wyoming 
Stock Growers Association.
    Without objection, I ask unanimous consent to submit these 
letters for the record.
    And it is so done.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Barrasso. Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Mr. Chairman, I understand we are going to 
be voting in a couple of minutes. Until we get the necessary 
quorum here, let me just thank you on behalf of all the members 
of this Committee, both Democrats and Republicans, for putting 
together a bill on conservation that I hope will enjoy not only 
broad support, I hope it has unanimous support. I think you 
have put together a well balanced package.
    I want to thank you and Senator Capito in regard to the 
Chesapeake Bay. We have been working--it won't be a surprise to 
this Committee that I mention the Chesapeake Bay as my first 
issue, but the reauthorization of the program, which we have 
acted on in the past. We have updated it, and I thank you for 
your help in updating it, and I have an amendment that will be 
incorporated either in the manager's package or when we vote, 
that points out the importance of the Chesapeake Bay Program.
    I might also add, I want to thank the appropriators, 
because they put more money into the program. So we are getting 
pretty close to the authorized levels here. All that, I think, 
is really strong news in regard to the Federal partnership in 
regard to the Chesapeake Bay Program.
    I also want to thank you for including some other 
provisions in this bill, including the Gateways Program, which 
is something we have also authorized in the past.
    I know Senator Van Hollen is here, I want to applaud his 
efforts in working in regard to the fish and wildlife programs 
as it relates to the Chesapeake Bay. So in all those examples, 
I think the Bay gets the proper attention in this bill.
    Senator Gardner and I have worked on a bill that allows 
Fish and Wildlife to, in regard to the fines, be able to use 
that in regard to conservation. I understand that Senator 
Sullivan has a concern about that provision, and in talking 
with the Chairman, it is our understanding that will be 
included in the package as it moves forward, provided we work 
out the issue in regard to Senator Sullivan's issue.
    With that, I was hoping that Senator Carper would be here 
by now. It looks like we have a quorum.
    Senator Barrasso. We do have a quorum.
    So we will wait for him.
    Senator Sullivan. Mr. Chairman.
    Senator Barrasso. Senator Sullivan.
    Senator Sullivan. I am just becoming aware of this issue, 
with Senator Cardin. I want to work with him on this.
    It does raise some issues that are very, very, very 
important to my State. The ANILCA Federal law that passed in 
1980, which was not supported by most Alaskans, is a law that 
is highly sensitive. Anything that impacts that law, it is a 
Federal law that only relates to Alaska. There are a lot of 
those, unfortunately, for my State.
    So I want to make sure that this doesn't negatively impact 
that. We are looking at it. But these are really important 
issues to me and my constituents. The U.S. Supreme Court, in a 
nine to zero case, just this year interpreted this ANILCA 
Federal law essentially saying, hey, Federal agencies have been 
misinterpreting this in Alaska for decades; nine to zero, Kagan 
opinion. We agree with that.
    So I want to make sure that whatever, and I want to work 
with Senator Cardin. I am a little reluctant to kind of sign 
off on something that we just saw yesterday that might have an 
impact on my State in a way that is very, very--could be very 
serious. I just want to make sure all the questions that I have 
on this and my State have on this are answered before we move 
forward.
    I would certainly want to work with Senator Cardin on an 
amendment for the floor. I think we can work this out soon. I 
was just made aware of this, my staff was just--just yesterday. 
I was made aware this morning. These ANILCA issues are really 
important to me.
    Senator Cardin. Mr. Chairman, if I could, I thank Senator 
Sullivan, and we certainly will--I always enjoy working things 
out with you. So I am certain we will be able to do this.
    I think it probably helps you. One reason why is, because 
it prevents OMB from trying to use this as a budget issue. So 
we are really, I think, in a way, helping you in regard to your 
concerns about the moneys coming in from this program being 
used as a filler in the budget. That prevents that from 
happening, because it keeps it within conservation.
    But I will be glad to work with Senator Sullivan to make 
sure that your issue is addressed.
    Senator Barrasso. We do have enough members here for a 
quorum. We are waiting on Senator Carper. But I know others 
have other obligations as well, and need to leave shortly. So 
we have enough members here.
    I would like to move to the votes on the items on today's 
agenda. The Ranking Member and I have agreed to vote on S. 
3051, America's Conservation Enhancement Act, by voice vote.
    The Ranking Member and I have further agreed to vote on the 
nomination and 19 General Services Administration resolutions 
en bloc by voice vote. Members may choose to have their votes 
recorded for a specific item in that bloc after the first vote.
    So the first vote, S. 3051, America's Conservation 
Enhancement Act, I would like to call that up at this time.
    [The text of S. 3051 follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   

    Senator Barrasso. Members have filed amendments to the 
bill. So before we proceed, I want to acknowledge several 
amendments.
    Senator Carper, we would love to have you, if you would 
like to, make an opening statement. I am just reading through 
some of the amendments that we have on this bill that we have 
talked about. Senators Merkley and Rounds have filed an 
amendment regarding pollinators on roadsides and highways 
rights of way. We are going to work with Senators Merkley and 
Rounds to address the issue of pollinators as we move the 
highway bill to the floor.
    [The text of Merkley Amendment #1 follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Senator Barrasso. Senator Carper, would you like to say a 
few words, either about specifically the Merkley-Rounds 
amendment or in general about the markup today?

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman. I will be brief.
    Colleagues, good morning, everyone.
    Good morning, Mr. Chair, and thank you.
    We have 19 General Services Administration resolutions on 
our agenda, as well as the nomination of Robert Feitel to be 
the Inspector General of the Nuclear Regulatory Commission.
    Before I begin, I want to say I am encouraged that our 
Committee is moving expeditiously to advance this nomination. 
We cannot be complacent when it comes to nuclear safety. We 
need to ensure that our Nation's nuclear industry is held to 
the very highest standards. That means we need a strong and 
independent NRC Inspector General. I believe Mr. Feitel is well 
qualified and prepared to take on this important 
responsibility.
    I also want to use this opportunity to focus on the 
bipartisan legislation we have before us today, America's 
Conservation Enhancement Act, or the ACE Act. This Congress, 
our Committee has examined a number of wildlife conservation 
challenges, including invasive species and wildlife disease. At 
each hearing, our witnesses emphasized the need for Federal 
action to address these conservation challenges.
    After weeks of negotiation, Chairman Barrasso and I 
introduced the bipartisan ACE Act, late last week, to enable 
some of those actions. In addition to creating innovative new 
programs, the ACE Act will reauthorize existing wildlife and 
habitat conservation projects that have a demonstrated history 
of success. Many of these programs leverage private dollars and 
local partnerships that will create tremendous opportunities in 
my State of Delaware.
    I am going to ask that the rest of my statement be entered 
for the record. I am pleased with our action today, and I thank 
my colleagues.
    [The prepared statement of Senator Carper was not received 
at time of print.]
    Senator Barrasso. Without objection, it will be.
    Senators Booker, Merkley, and Whitehouse filed an amendment 
regarding wildlife corridors. I worked with Senators Carper and 
Booker on wildlife corridors in the highway bill, and we are 
going to continue to work with them on wildlife mitigation 
issues.
    [The text of Booker Amendment #1 follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Senator Barrasso. There is an amendment we were discussing 
earlier filed by Senator Cardin regarding the National Wildlife 
Refuges, and Senator Sullivan appropriately requested 
additional time to study the issue. We are not going to 
consider that amendment at this time, but I look forward to 
working with both of them to address the matter in the future.
    The Ranking Member and I have agreed to vote on the three 
amendments en bloc by voice vote. Members may choose to have 
their votes recorded for a specific item in that bloc after the 
voice vote.
    We have agreed to consider Barrasso-Carper No. 1, Cardin-
Van Hollen No. 1, and also Merkley-Booker No. 3, which we 
agreed to accept as filed after the filing deadline, and which 
we circulated yesterday afternoon. I am pleased to accept these 
amendments.
    So I would like to now call up Barrasso-Carper 1, Cardin-
Van Hollen No. 1, and Merkley-Booker No. 3 en bloc. I ask that 
members hold discussion on their agreed upon amendments until 
after we complete voting.
    I move to approve Barrasso-Carper 1, Cardin-Van Hollen 1, 
and Merkley-Booker No. 3 en bloc. Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor, say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. We have adopted and agreed to Barrasso-Carper 1, 
Cardin-Van Hollen 1, Merkley-Booker No. 3.
    Seeing no further members wishing to offer amendments, I 
ask unanimous consent that the Chair be authorized to 
incorporate the amendments we have agreed to into a single 
amendment in the nature of a substitute to S. 3051, without 
objection.
    I now move to approve the substitute amendment to S. 3051 
and report S. 3051, as amended, favorably to the Senate. Is 
there a second?
    Senator Cardin. Second.
    Senator Barrasso. All those in favor, say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. We have approved S. 3051 as amended. That will be 
reported favorably to the Senate.
    Now I would like to call up Presidential Nomination 1247, 
Robert Feitel, of Maryland, to be Inspector General of the 
Nuclear Regulatory Commission, and 19 General Services 
Administration Resolutions en bloc.
    Senator Cardin. Mr. Chairman.
    Senator Barrasso. Senator Cardin.
    Senator Cardin. I would ask unanimous consent to submit for 
the record a letter from GSA. This letter provides assurances 
that none of the funds authorized for consolidated activities 
programs for fiscal year 2020 will be used toward the FBI 
headquarters. The letter is dated December 16th of this year.
    Senator Barrasso. Without objection, so ordered.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Barrasso. We move now to approve and report 
Presidential Nomination 1247 and approve 19 GSA Resolutions en 
bloc. Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor, say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. We have approved Presidential Nomination 1247, which 
will be reported favorably to the Senate. We have also approved 
19 GSA Resolutions.
    The voting part of the meeting has concluded. I would be 
happy to recognize any member who wishes to speak.
    Senator Carper. Mr. Chairman.
    Senator Barrasso. Senator Carper.
    Senator Carper. Could I just say one thing before we leave? 
Senator Sullivan and I were fortunate to sit together for the 
Army-Navy football game on Saturday. We were proud of our 
teams, and proud of the Army as well. It was great.
    There all kinds of people wearing Army uniforms, Navy 
uniforms, Marine, Air Force uniforms that day. I said, 
different uniforms, same team. Different uniforms, same team. 
And I feel that on this Committee, we wear different uniforms, 
but on a day like today, same team.
    Thank you.
    Senator Barrasso. Thank you very much, Senator Carper.
    Now that we have approved this, would anyone like to make 
statements on any of--Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. I want to 
thank you and Senator Carper for teaming up and proposing this 
really important piece of bipartisan legislation. Thank you for 
that.
    I want to second some of the comments Senator Cardin made 
regarding the EPA program for the Chesapeake Bay, both the 
reauthorization at a somewhat higher level, the Chesapeake 
Gateways Programs and specifically the new Chesapeake WILD Act, 
which will provide Fish and Wildlife with the authority to work 
with folks in the Bay to better restore habitat for wildlife. I 
am grateful for the inclusion of that, and thank you both for 
your leadership.
    Senator Barrasso. Thank you very much, Senator Van Hollen.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chairman. I 
appreciate your team working with my team for the Amendment No. 
3, and for your statement regarding the Monarch Pollinators 
Highway.
    The Monarch has suffered a huge decline in its center of 
the country. There are two main Monarch populations: one east 
of the Rockies, one west of the Rockies. West of the Rockies is 
even more devastated, with 90-plus percent loss within the last 
decade, and an indication that this year is half of last year. 
So it is a very dramatic impact, and I look forward to having 
that conversation as part of the highway bill.
    The whole idea is based on Tennessee, which enabled plots 
of milkweed and other pollinator friendly plants, to be patched 
along the State highways. It just seems like a simple way to 
help provide additional habitat, and a valuable thing to 
undertake. Thank you for your offer to help when we come to the 
highway bill.
    Senator Barrasso. Absolutely. Thank you for your leadership 
on this.
    Senator Carper.
    Senator Carper. Thanks. I want to commend Senator Merkley 
for his amendment and for shining a light on the plight of our 
Nation's pollinators. Pollinators like Monarch butterflies and 
bees have experienced population declines in recent years due 
to climate change, habitat loss, pesticide use, and other 
factors. These declines not only present a serious threat to 
the health of natural ecosystems, but also to our Nation's food 
supply and agricultural economy.
    This last Saturday, we celebrated the 75th anniversary of 
the Delaware Farm Bureau, the establishment of the Delaware 
Farm Bureau in the State of Delaware. I don't think I ever go 
to a Farm Bureau meeting without some farmer raising this issue 
with me in the first day.
    It is important that we take steps to protect and enhance 
the health of these vulnerable populations. Senator Merkley's 
amendment would create a discretionary grant program for States 
and tribes to create pollinator friendly habitats on roadsides 
and rights of way. I am proud to be a cosponsor of the 
standalone legislation from which Senator Merkley drafted this 
amendment.
    All that said, our Committee included carefully negotiated 
pollinator provisions in our bipartisan highway bill.
    Chairman Barrasso, I would like to work with you and 
Senator Merkley, if we could, to try to improve upon those 
provisions as the bill heads to the floor, instead of amending 
the ACE Act to include this program. We look forward to doing 
that, and I appreciate your willingness to work with us toward 
that end.
    Thank you.
    Senator Barrasso. At this time, I ask unanimous consent 
that the staff have authority to make technical and conforming 
changes to each of the matters approved today, without 
objection.
    And with that, our business meeting is concluded; the 
meeting is adjourned.
    [Whereupon, at 9:58 a.m., the meeting was adjourned.]
    [Additional legislation submitted for the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
                                 <all>
</pre></body></html>
